uou; zo

uoorts Mppeai: zu-o

meu:

i

rg. i ui z,

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6124

DMITRY PRONIN,
Plaintiff - Appellant,
v.
LIEUTENANT TROY JOHNSON; OFFICER FLOURNOY; OFFICER
MIDDLEBROOK; OFFICER WILSON; OFFICER CRAWFORD; KENNETH
ATKINSON;
DANIEL
FALLEN;
REX
BLOCKER;
LOUISA
FUERTES-RASARIO; SANDRA K. LATHROP; JAKE BURKETT; BRANDON
BURKETT; JOHN BRYANT; PATINA WALTON-GRIER; HENRI WALL;
EDWARD HAMPTON; WILLIAM JOHNSON; LIEUTENANT EDA
OLIVERA-NEGRON, Operations,
Defendants - Appellees.

Appeal from the United States District Court for the District of South Carolina, at
Orangeburg. David C. Norton, District Judge. (5:12-cv-03416-DCN)

Submitted: January 21, 2021

Decided: February 2, 2021

Before GREGORY, Chief Judge, and MOTZ and WYNN, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Dmitry Pronin, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

uoum rtppeai: ^u-o \m

uuu: £.0

rneu: onozitx)*. i

ry: ^ U!

PER CURIAM:
Dmitry Pronin appeals from the district court’s orders granting judgment as a matter
of law to Defendant Jake Burkett and entering judgment pursuant to the jury verdict in
favor of Defendant Troy Johnson. On appeal, Pronin asserts that the district court erred in
denying his motion to reopen evidence in his direct case due to the alleged refusal of his
attorneys to seek admission of certain statements by Burkett and his brother. However,
attorney error is not a “legitimate justification” for failing to present the evidence sooner,
and thus, the district court was “well within its discretion in refusing to consider” Burkett’s
evidence. See Cray Comm. v. Novatel Comp. Sys., 33 F.3d 390, 395 (4th Cir. 1994) (noting
that the argument that a lawyer’s mistake imposes an “unjust penalty” on an innocent client
is “wholly inconsistent with our system of representative litigation”). Accordingly, we
affirm the district court’s judgment. We dispense with oral argument because the facts and
legal contentions are adequately presented in the materials before this court and argument
would not aid the decisional process.
AFFIRMED

2

